                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS       '




                                             CLOSEOUT MEMORANDUM

 Case Number:             P6V600                                                               Page 1 of 1



          Our office received an allegation that a PI' had not completed his C&PS form in a proposal2
          submitted to the Biology Directorate. In doing so, the subject allegedly masked that fact that he had
          submitted a somewhat identical proposal to N M which is a violation of the NSF Grant Proposal
          Guide.

         Our review of the NSF and NIH proposals showed they were not identical, however, they did contain
         blocks of similar text and contained overlapping scientific aims and goals. We also confirmed that
         the NIH proposal was not listed on the C&PS of the NSF proposal.

         The subject's response to our questions suggested a somewhat lax perspective of the need to list
         pending proposals on the NSF C&PS form. We wrote to the subject strongly reminding him to list
         all current and pending support on his future proposals.

         No further actions are required and accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
